No. ______

In The

Supreme Court of the United States
ROBERT TIMOTHY HARLEY,
v.

Petitioner,

THE ATTORNEY GENERAL OF THE UNITED
STATES AND THE DIRECTOR OF THE BUREAU
OF ALCOHOL, TOBACCO, FIREARMS,
AND EXPLOSIVES,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

APPENDIX

MARVIN D. MILLER
THE LAW OFFICES OF
MARVIN D. MILLER
1203 DUKE STREET
ALEXANDRIA, VA 22314
(703) 548-5000
OFC@MDMILLERLAW.COM
July 22, 2021

COUNSEL FOR PETITIONER

LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

App-i

TABLE OF APPENDICES
Appendix A
Published Opinion of the United States
Court of Appeals for the Fourth Circuit,
Harley v. Wilkinson; Lombardo, No. 19-1632
(Feb. 22, 2021)............................................ App.1
Appendix B
Memorandum Opinion of the United States
District Court of the Eastern District of
Virginia, Alexandria Division, Harley v. Barr,
No. 1:18-cv-396, (Apr. 16, 2019) ................ App.39
Appendix C
Order of the United States District Court
of the Eastern District of Virginia, Alexandria
Division, Harley v. Barr, No. 1:18-cv-396,
(Apr. 17, 2019) ........................................... App.52

App-1

OPINION
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----No. 19-1632
-----ROBERT TIMOTHY HARLEY,
Plaintiff - Appellant,
v.
ROBERT M. WILKINSON, Acting Attorney General
of the United States; REGINA LOMBARDO, Acting
Director, Bureau of Alcohol, Tobacco, Firearms, and
Explosives,
Defendants - Appellees.
Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. T.S.
Ellis, III, Senior District Judge. (1:18-cv-00396-TSEIDD)
Argued: September 10, 2020 Decided: February22,
2021
Before KEENAN,
Circuit Judges.

WYNN,

and

RICHARDSON,

Affirmed by published opinion. Judge Keenan wrote
the majority opinion in which Judge Wynn joined.
Judge Wynn wrote a concurring opinion. Judge
Richardson wrote a dissenting opinion.

App-2

ARGUED: Marvin David Miller, LAW OFFICE OF
MARVIN D. MILLER, Alexandria, Virginia, for
Appellant. Thais-Lyn Trayer, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C., for
Appellees. ON BRIEF: Joseph H. Hunt, Assistant
Attorney General, Mark B. Stern, Patrick G.
Nemeroff, Civil Division, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C.; G.
Zachary Terwilliger, United States Attorney,
OFFICE OF THE UNITED STATES ATTORNEY,
Alexandria, Virginia, for Appellees.
BARBARA MILANO KEENAN, Circuit Judge:
In 1993, Robert Harley (Harley) was
convicted of misdemeanor assault and battery of a
family member, in violation of Virginia Code §18.257.2. As a result of this conviction, he is prohibited
for life under 18 U.S.C. §922(g)(9) from possessing a
firearm unless he obtains a pardon or an
expungement of his conviction. Harley filed this
action seeking a declaration that Section 922(g)(9) is
unconstitutional as applied to him. He argues that
he no longer should be subject to the prohibition
because he has demonstrated good behavior during
the 27 years since his conviction.
The district court granted summary
judgment to the defendants, the United States
Attorney General and the Director of the Bureau of
Alcohol, Tobacco, Firearms, and Explosives
(collectively, the defendants), concluding that the
prohibition
in
Section
922(g)(9)
satisfies
intermediate scrutiny as applied to Harley. After
assuming without deciding that domestic violence

App-3

misdemeanants retain some level of Second
Amendment protection, the district court held that
Section 922(g)(9) provides a reasonable fit for the
governmental objective of protecting families from
gun violence caused by convicted domestic abusers.
Upon our review, we agree with the district
court and hold that 18 U.S.C. §922(g)(9) is
constitutional as applied to Harley. In reaching this
conclusion, we adopt the approach of our sister
circuits and decline to read into the statute an
exception for good behavior or for the passage of
time.
I.
In reviewing the district court’s award of
summary judgment to the defendants, we state the
facts and draw all reasonable inferences in the light
most favorable to Harley, the nonmoving party.
Smith v. Collins, 964 F.3d 266, 274 (4th Cir. 2020).
After graduating from high school in 1980, Harley
joined the Fairfax County Department of Public
Works (the County) as an unskilled laborer.
Throughout his thirty-year career with the County,
Harley was promoted numerous times, eventually
rising to the rank of Industrial Electrician II. He
also earned three advanced job-related certifications
during his tenure. After retiring from the County,
Harley began his own business as a licensed
electrician.
In addition to his employment with the
County, Harley served for decades as a volunteer
firefighter and an emergency medical technician. He
ultimately became the fire captain for the Dale City
Volunteer Fire Department. Harley also was a

App-4

member of the Department’s board of directors. He
won numerous awards for service related to his work
as a volunteer firefighter.
In 1993, Harley pleaded guilty to
misdemeanor assault and battery of a family
member, in violation of Virginia Code §18.2-57.2,
based on an altercation he had with his then-wife. In
an affidavit admitted into evidence in the present
case, Harley’s ex-wife stated that she continued a
“friendly relationship” with Harley after the
incident, and that they are “still friends to this day.”
Harley has not been convicted of any other crimes
since the 1993 conviction. However, as noted above,
Harley remains prohibited under 18 U.S.C.
§922(g)(9) from possessing a firearm based on that
conviction.
Harley filed the present suit asserting that
18 U.S.C. §922(g)(9) violates his Second Amendment
rights and is unconstitutional as applied to him. In
his complaint, Harley sought a declaratory judgment
and an injunction prohibiting the government from
enforcing Section 922(g)(9) against him.
After considering the parties’ evidence and
arguments, the district court granted the defendants’
summary judgment motion, holding that Section
922(g) (9) is constitutional as applied to Harley. The
court concluded that the statute satisfied the
constitutional test for intermediate scrutiny, and
that Harley’s conviction qualified as a “misdemeanor
crime of domestic violence” within the meaning of
that statutory term. Harley appealed from the
district court’s judgment.
II.

App-5

Initially, we make two observations that
inform our analysis in this case. First, we note that
Harley does not challenge the fact of his conviction
under Virginia Code §18.2-57.2. Second, we
emphasize that Harley does not contest the district
court’s conclusion that his conviction under Virginia
Code §18.2-57.2 qualifies as a misdemeanor crime of
domestic violence for purposes of Sections 922(g)(9)
and 921(a)(33)(A). Accordingly, we reject Harley’s
invitation to reweigh the facts underlying his prior
Virginia conviction.
We review de novo the district court’s
decision granting summary judgment. Calloway v.
Lokey, 948 F.3d 194, 201 (4th Cir. 2020); see also
United States v. Gibert, 677 F.3d 613, 618 (4th Cir.
2012) (“We review de novo a challenge to the
constitutionality of a federal statute.”). A party is
entitled to summary judgment if “there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a).
Section 922(g)(9) prohibits individuals
previously convicted of a “misdemeanor crime of
domestic violence,” as defined in 18 U.S.C. §921 (a)
(33)(A), from possessing a firearm. As an initial
matter, we observe that Harley does not challenge
on appeal the district court’s determination that his
Virginia conviction qualifies under Section 922(g)(9)
as a “misdemeanor crime of domestic violence.”
Instead, Harley argues that the district court
improperly conducted its as-applied analysis under
the Second Amendment because the court failed to
consider Harley’s personal history following his

App-6

conviction.
He contends that his individual
characteristics, namely, the long passage of time
since his misdemeanor conviction and his exemplary
life in the many years since his conviction, render
Section 922(g)(9) unconstitutional as applied to him.
In response, the defendants contend that
under our decision in United States v. Staten, 666
F.3d 154 (4th Cir. 2011), the district court properly
rejected Harley’s as-applied challenge. According to
the defendants, Harley’s challenge is foreclosed
because we held in Staten that Section 922(g)(9)
survives intermediate scrutiny by providing a
reasonable fit to meet a substantial governmental
interest. We agree with the defendants’ argument.
Like our sister circuits, we apply a twoprong approach in considering as-applied Second
Amendment challenges. United States v. Chester,
628 F.3d 673, 680-83 (4th Cir. 2010); see also United
States v. Marzzarella, 614 F.3d 85, 89 (3d Cir. 2010);
United States v. Reese, 627 F.3d 792, 800-01 (10th
Cir. 2010); United States v. Chovan, 735 F.3d 1127,
1137 (9th Cir. 2013); GeorgiaCarry.Org, Inc. v. U.S.
Army Corps of Eng’rs, 788 F.3d 1318, 1322 (11th Cir
2015; Tyler v. Hillsdale Cnty. Sheriff’s Dep’t, 837
F.3d 678, 685- 86 (6th Cir. 2016) (en banc); United
States v. Jimenez, 895 F.3d 228, 232 (2d Cir. 2018);
Medina v. Whitaker, 913 F.3d 52, 156 D.C.Cir. 2019);
Kante v. Barr, 919 F.3d 437 441-42 (7th Cir. 2019).
Under the first prong of this approach, we address
whether the challenged regulation “burdens or
regulates conduct that comes within the scope of the
Second Amendment.” Chester, 628 F.3d at 680. If
the challenged regulation satisfies this first prong, or

App-7

if we assume without deciding that the regulation
meets this requirement, we turn to perform under
our second prong a “means-end” review, in which we
consider the regulation under the appropriate level
of constitutional scrutiny. Id.
Here, under the first prong, we will assume
without
deciding
that
domestic
violence
misdemeanants are entitled to some degree of
Second Amendment protection. Staten, 666 F.3d at
160-61. Therefore, we proceed to the second prong of
the analysis, in which we apply intermediate
scrutiny to consider Harley’s challenge to Section
922(g)(9). Id. at 161; Chester, 628 F.3d at 683. Under
the standard of intermediate scrutiny, the
government bears the burden of establishing a
reasonable fit between the challenged law and a
substantial governmental objective. Staten, 666 F.3d
at 161. A statute may meet this standard despite
being overinclusive in nature. Id. at 167.
Our analysis in this case is governed
directly by our decision in Staten, in which we
rejected an as-applied Second Amendment challenge
to Section 922(g)(9). Staten, 666 F.3d at 168. There,
relying on extensive social science research
presented by the government, we concluded that the
government had established that:
(1) domestic violence is a serious problem in the
United States; (2) the rate of recidivism among
domestic violence misdemeanants is substantial;
(3) the use of firearms in connection with
domestic violence is all too common; (4) the use
of firearms in connection with domestic violence
increases the risk of injury or homicide during a

App-8

domestic violence incident; and (5) the use of
firearms in connection with domestic violence
often leads to injury or homicide.
Id. at 167. Based on this record, we concluded that
Section 922(g)(9) survived intermediate scrutiny. Id.
at 168. We explained that despite the possibly
overinclusive “net cast” by Section 922(g), the
evidence showed “a reasonable fit” between the
statute and the substantial governmental objective
of reducing domestic gun violence. Id. at 167. In
reaching this conclusion, we emphasized that the fit
between the statutory prohibition and the
governmental interest need only be a reasonable fit,
not a perfect one. Id. at 162. Moreover, in making
this determination, we did not consider any
individual characteristics of the person raising the
as-applied challenge but focused entirely on the
statute itself and the evidence addressing statutory
purpose and fit.
In accord with our analysis in Staten, we
decline Harley’s request that we review his
individual
characteristics
as
part
of
our
consideration of his as-applied challenge to Section
922(g)(9).
Harley’s
suggested
approach
is
fundamentally flawed because it effectively would
create an exception to the statute that does not exist.
The statute imposes a flat prohibition, with no
reference to individual circumstances occurring after
the disqualifying conviction. Despite its power to do
so, Congress did not provide a sunset clause or a
good behavior exception to the statute. See Stimmel
v. Sessions, 879 F.3d 198, 211 (6th Cir. 2018) (citing
Chovan, 735 F.3d at 1141-42).

App-9

We also observe that the definition of
“misdemeanor crime of domestic violence” applicable
in Section 922(g)(9) narrowly defines the category of
prohibited individuals, by requiring that the
underlying conviction have “as an element, the use
or attempted use of physical force.” 18 U.S.C. §921
(a)(33)(A)(ii). The definition of a “misdemeanor crime
of domestic violence” also requires that the
conviction have been secured through a jury trial
with counsel, or after an intelligent waiver of a
defendant’s constitutional rights. Id. §921(a)(33)(B).
And the statute provides that the firearm
prohibition no longer applies, with some exceptions,
if the domestic violence misdemeanor conviction “has
been expunged or set aside” or if “the person has
been pardoned or has had civil rights restored.” Id.
§921(a)(33)(B)(ii). These requirements demonstrate
Congress’ ability and willingness to place limitations
on a statutory prohibition. Thus, we will not depart
from the text of the statutory scheme to create by
judicial fiat an exception to Section 922(g)(9).
When enacting Section 922(g)(9), Congress
expressed grave concerns that the risk of escalating
violence by domestic violence misdemeanants would
be increased by their having access to firearms. In
the context of “million[s of] acts of domestic violence,
and hundreds of deaths from domestic violence, each
year,” Section 922(g)(9) was designed to help reduce
the incidence of deaths caused by acts of domestic
violence. United States v. Castleman, 572 U.S. 157,
159-60 (2014). Because many domestic violence
offenses fail to qualify under the felon in possession
prohibition in Section 922(g)(1), Section 922(g)(9)
was enacted to “close a dangerous loophole.” Id. at

App-10

160 (citation and alteration omitted). As noted
above, a statutory provision can be constitutional
under intermediate scrutiny despite its potentially
overinclusive nature. Staten, 666 F.3d at 167. Thus,
although Harley’s post-conviction life may suggest
that he is not a high risk for engaging in assaultive
conduct toward a family or household member, this
fact merely would render the reach of the statute
overinclusive, not unconstitutional.
Our conclusion is not altered by Harley’s
reliance on dicta in two of our prior decisions
discussing the review of individual characteristics in
as-applied challenges. Notably, in both those cases,
we rejected as-applied challenges to Section 922(g)(1)
seeking consideration of individual characteristics,
emphasizing the rarity of such potential
consideration. United States v. Moore, 666 F.3d 313,
319-20 (4th Cir. 2012); United States v. Smoot, 690
F.3d 215, 221 (4th Cir. 2012). For example, in Moore
we prefaced our discussion of evaluating individual
characteristics with a warning that such a
framework was merely a “theoretical” possibility.
666 F.3d at 320. And in Smoot, we noted that any
review of individual characteristics in an as-applied
challenge to Section 922(g)(1) would require factual
circumstances outside the “realm of ordinary
challenges.” 690 F.3d at 221 (citation omitted).
Moreover, our dicta in Moore and Smoot,
that individual circumstances may be relevant in
rare cases involving as-applied challenges to Section
922(g)(1), has limited relevance in the context of
Section 922(g)(9). In contrast to the single crime
identified in Section 922(g)(9), which requires “as an

App-11

element, the use or attempted use of physical force,
or the threatened use of a deadly weapon,” 18 U.S.C.
§921(a)(33)(A)(ii), the language of Section 922(g)(1)
broadly prohibits individuals convicted of “a crime
punishable by imprisonment for a term exceeding
one year” from possessing a firearm. Id. §922(g)(1).
Thus, the prohibition in Section 922(g)(1)
encompasses an innumerable range of possible
convictions and conduct, including some that
potentially could exceed the statutory purpose of
Section 922. In contrast, it would be an extremely
rare case, if any, in which the framework
“theoretically” envisioned by Moore and Smoot could
be found appropriate in an as-applied challenge to
Section 922(g)(9), in which the use or attempted use
of physical force, or the threatened use of a deadly
weapon, supporting the underlying conviction is
manifestly related to the statutory prohibition.1
1
Harley’s heavy reliance on United States v. Hosford,
843 F.3d 161 (4th Cir. 2016),is unavailing. Hosford involved
facial and as-applied challenges to 18U.S.C. §922(a)(1)(A),
which prohibits “any person . . . except a licensed importer,
licensed manufacturer, or licensed dealer, to engage in the
business of importing, manufacturing, or dealing in firearms, or
in the course of such business to ship, transport, or receive any
firearm in interstate or foreign commerce.”§922(a)(1)(A)
(emphasis added); see Hosford, 843 F.3d at 165. In rejecting the
as-applied challenge, we determined that the challenger’s
individual circumstances fit within the statutory purpose of the
prohibition. Hosford, 843F.3dat 169–70. Such an approach is
inapplicable here. Section 922(a)(1)(A)’s prohibition applies to
nearly the entire population, thus encompassing a larger
portion of the population than Section 922(g)(1), making its
easily distinguishable from the narrow prohibition in Section
922(g)(9). And even if the decision in Hosford were applicable,
Harley has failedto distinguish his individual circumstances
from Section 922(g)(9)’s statutory purpose.

App-12

For these reasons, we adopt the approach of
our sister circuits and decline to read into Section
922(g)(9) an exception for good behavior or for the
passage of time following a disqualifying conviction
for a misdemeanor crime of domestic violence. See
Chovan, 735 F.3d at 1142; Stimmel, 879 F.3d at 21011; see also Binderup v. Att’y Gen., 836 F.3d 336, 349
(3d Cir. 2016) (en banc) (rejecting a passage of time
exception for the felon in possession of a firearm
prohibition in Section 922(g)(1)). Congress, not the
courts, must decide whether exceptions for good
behavior or the passage of time should be added to
Section 922(g)(9). Thus, while we commend Harley’s
apparently model life after his conviction, the
question whether to restore his ability to obtain a
firearm is a matter of public policy entrusted solely
to Congress.2 Or, as noted, he may seek a pardon or
expungement under Virginia law—the avenues for
relief that Congress has already provided in the
statute.

Harley also argues that the district court improperly
relied on social science studies presented by the defendants,
because those studies purportedly contain disputed material
facts. This argument lacks merit, however, because while
Harley disputes the relevance of those studies to his individual
circumstances, he does not challenge the conclusions reached in
the studies or the methodology used. See Angell v. Chesapeake
& Ohio Ry. Co., 618 F.2d 260, 262 (4th Cir. 1980) (holding the
application of undisputed facts is a matter of law properly
decided by courts). Additionally, the social science studies were
relevant to the government’s burden of demonstrating a
substantial governmental interest. See Staten, 666 F.3d at
163-67; United States v. Skoien, 614 F.3d 638, 643-44(7th Cir.
2010)(en banc). Therefore, we reject Harley’s challenge to the
district court’s consideration of the social science evidence.
2

App-13

We therefore hold that the district court did
not err in granting summary judgment to the
defendants, and that Section 922(g)(9) is
constitutional as applied to Harley. Accordingly, we
affirm the district court’s judgment
AFFIRMED

WYNN, Circuit Judge, concurring:
I concur entirely in the well-reasoned
majority opinion. I write separately to note my
disagreement with my dissenting colleague’s view,
which would effectively gut the statute, according
with neither its plain language nor legislative intent.
My dissenting colleague would effectively
read into §922(g)(9) an exception for domestic
violence convictions that are not, in his view,
“serious” enough. But doing so would unjustifiably
subvert the intent of Congress, as made clear in the
plain language of the statute: “It shall be unlawful
for any person . . . who has been convicted in any
court of a misdemeanor crime of domestic violence,”
to engage in certain firearm-related activity. 18
U.S.C. §922(g)(9). The statute defines “misdemeanor
crime of domestic violence.” Id. §921(a)(33). And that
definition
provides
specific
exceptions.
Id.
§921(a)(33)(B). While the definition narrows the
scope of the statute to a particular group of domestic
violence misdemeanants, none of the statutory
exceptions pertains to how “serious” the underlying
domestic violence offense was.

App-14

That should not be surprising. After all, it is
self-evident on the face of the statute that Congress
wished to single out domestic violence convictions,
regardless of how “serious” those convictions are.
The statute already covers those “who ha[ve] been
convicted in any court of[] a crime punishable by
imprisonment for a term exceeding one year”—that
is, those who have been convicted of crimes generally
considered more “serious.” Id. § 922(g)(1). The only
misdemeanants covered by the statute are those
convicted of crimes of domestic violence.
That distinction represents Congress’s
policy judgment. And, as we have held, that was
Congress’s prerogative. United States v. Staten, 666
F.3d 154, 163–67 (4th Cir. 2011). Underlying
Congress’s decision to single out domestic violence
misdemeanors are the “sobering” realities that
“[d]omestic violence often escalates in severity over
time,” “the presence of a firearm increases the
likelihood that it will escalate to homicide,” and
“many perpetrators of domestic violence are
convicted only of misdemeanors.” United States v.
Castleman, 572 U.S. 157, 160 (2014).
My dissenting colleague brushes aside our
precedent approving of the constitutionality of this
measure with a puzzling reference to the Supreme
Court’s decision in Castleman. Dissenting Opinion at
31 (“Now that the Supreme Court has mandated a
broader scope for §922(g)(9), Staten cannot control
the outcome of Harley’s challenge.”). But my
colleague gets the matter precisely backwards. The
Supreme Court’s decision in Castleman only serves
to highlight why §922(g)(9) is constitutional, even as

App-15

applied to those domestic violence misdemeanants
whose misdemeanors some may deem not to be
“serious.”
As
the
Supreme
Court
explained,
“‘[d]omestic violence’ is not merely a type of
‘violence’; it is a term of art encompassing acts that
one might not characterize as ‘violent’ in a
nondomestic context.” Castleman, 572 U.S. at 165.
But even otherwise innocuous acts, in the particular
context of domestic violence, can “accumulat[e] . . .
over time,” thereby “subject[ing] one intimate
partner to the other’s control.” Id. at 166. For that
reason, the Court went on, “[i]f a seemingly minor
act . . . draws the attention of authorities and leads
to a successful prosecution for a misdemeanor
offense”—which, all too often, is a big “if”—“it does
not offend common sense or the English language to
characterize the resulting conviction as a
‘misdemeanor crime of domestic violence.’” Id.
The Court also pointed to the text of the
statute, noting that other statutory provisions “show
that when Congress wished to define ‘domestic
violence’ as a type of ‘violence’ simpliciter, it knew
how to do so. That it did not do so here suggests, if
anything, that it did not mean to.” Id. at 166 n.6.
Therefore, the Court noted, Congress has the option
“to define ‘domestic violence’—where it wants to—as
requiring violent force.” Id.
It is hard to see how all of this supports the
dissent’s view. The Supreme Court plainly
interpreted the statute to cover all enumerated
domestic violence misdemeanors—not just those for
“serious” offenses—and concluded that this was

App-16

Congress’s intent. Moreover, it is hard to fathom
why the Supreme Court would have given the
statute a meaning in Castleman that it believed to
be unconstitutional without engaging with the
constitutional concerns raised, albeit in passing, by
the defendant in that case.
Castleman also contradicts the dissent’s
implication, based on limited legislative history, that
§922(g)(9) was meant only to combat “serious”
domestic violence. See Dissenting Opinion at 24. In
fact, as Castleman noted, “to the extent that
legislative history can aid in the interpretation of
this statute,” it does not support the contention that
“Congress could not have intended for the provision
to apply to acts involving minimal force.” Castleman,
572 U.S. at 171; see also id. at 172 (“[N]othing about
these Senators’ isolated references to severe
domestic violence suggests that they would not have
wanted § 922(g)(9) to apply to a misdemeanor
assault conviction like Castleman’s.”). Rather, as
noted, Congress’s interest was in preventing any
member of a defined subset of domestic violence
misdemeanants from possessing firearms, based on
the risks that subset of misdemeanants posed to
others. The governmental interest is in preventing
future harm, and its method of doing so is by
disarming individuals who have demonstrated a
potential to enact that future harm. The application
to Harley is thus not “far outside [the law’s]
justification.” Dissenting Opinion at 24 n.5. In other
words, as we concluded in Staten—and conclude
again today—Congress’s policy judgment in enacting
§ 922(g)(9) survives intermediate scrutiny, even in

App-17

the context of Harley’s as-applied challenge, given
the narrowness of the statutory provision.*3
Further, adopting my dissenting colleague’s
view would create a strange anomaly in our case
law. After all, this Court has already held that
§922(g)(1) may constitutionally be applied to even
nonviolent felons. United States v. Pruess, 703F.3d
242,247 (4th Cir. 2012); see also Hamilton v.
Pallozzi, 848 F.3d 614, 623 (4th Cir. 2017)
(upholding Maryland laws “substantially similar” to
§922(g)(1) against an as-applied challenge by a felon
convicted of credit card fraud, credit card theft, and
credit card forgery). It would be a strange world
indeed if we were to make exceptions to the firearm
prohibition
for
some
domestic
violence
misdemeanants—whose
crime
is
specifically
enumerated in the statute and by definition includes
some level of violence—while rejecting challenges
from those with plainly nonviolent felony
convictions.
Finally, I note that the Supreme Court has
(unanimously) indicated a concern with courts
engaging in analyses to determine whether
individuals may safely possess firearms after having
lost their rights to do so. A federal statute, 18 U.S.C.
925(c), “permits the Attorney General to grant relief
3

(∗) See Staten, 666 F.3d at 167(“We recognize that the net
cast by §922(g)(9) may be somewhat over-inclusive given that
every domestic violence misdemeanant would not necessarily
misuse a firearm against a spouse . . . if permitted to possess
one. However, this observation merely suggests that the fit is
not perfect. Intermediate scrutiny does not require a perfect fit;
rather only a reasonable one.”).

App-18

from a firearms disability if ‘the applicant will not be
likely to act in a manner dangerous to public safety
and . . . the granting of the relief would not be
contrary to the public interest.’” Stimmel v. Sessions,
879 F.3d 198, 211 (6th Cir. 2018) (alteration in
original) (quoting 18 U.S.C. 925(c)). But “Congress
has withheld funding for processing §925(c) relief
applications since 1992 after finding that reviewing
applications was a ‘very difficult and subjective task
which could have devastating consequences for
innocent citizens if the wrong decision [wa]s made.’”
Id. (alteration in original) (quoting S. Rep. No. 102353, at 19 (1992)).
Section 925(c) also permits judicial review
where the Attorney General denies relief. In United
States v. Bean, 537 U.S. 71 (2002), the applicant
argued that the Attorney General’s failure to act on
his application due to the lack of funding constituted
a “denial,” permitting judicial review.
The Supreme Court disagreed and
concluded federal courts lack jurisdiction in the
absence of an “actual decision” by the Attorney
General. Id. at 76. Further, and relevant to this case,
the Court emphasized that the Attorney General
was to be “the primary decisionmaker” because the
evaluation necessitated by § 925(c) was one for
which courts were less competent than the executive
branch:
Whether an applicant is “likely to act in a
manner
dangerous
to
public
safety”
presupposes an inquiry into that applicant’s
background—a function best performed by the
Executive,
which,
unlike
courts,
is

App-19

institutionally equipped for conducting a
neutral, wide-ranging investigation. Similarly,
the “public interest” standard calls for an
inherently policy-based decision best left in
the hands of an agency.
Id. at 77.
Here, Harley seeks to avoid the limitations
of §925(c) by pursuing an as-applied challenge
directly in federal court, arguing that his specific
circumstances
mean
that
§922(g)(9)
is
unconstitutional as applied to him. The dissent
would permit him to do that. Respectfully, in my
view, the statutory structure speaks for itself.
Harley’s relief, if any, lies in obtaining a pardon in
Virginia or receiving relief from the Attorney
General. 18 U.S.C. §§ 921(a)(33)(B)(ii), §925(c).
Those are the paths Congress has designated. And it
is within its constitutional rights to do so.

RICHARDSON, Circuit Judge, dissenting:
The Second Amendment provides, “A well
regulated militia, being necessary to the security of a
Free State, the right of the people to keep and bear
Arms, shall not be infringed.” U.S. CONST. amend.
II. In Heller v. District of Columbia, the Supreme
Court turned to text, history, and tradition to
conclude that the Amendment codified a preexisting
“individual right to keep and bear arms” but
instructed that this right, like most rights, “is not
unlimited.” 554 U.S. 570, 595, 626 (2008). In this
appeal, we review one legislative effort at restricting

App-20

who may keep and bear arms. Section 922(g)(9)
permanently disarms anyone convicted of a
misdemeanor crime of domestic violence. Harley,
having been convicted nearly thirty years ago under
Virginia law, falls under the plain language of the
statute. We ask only if the Second Amendment
permits his statutory disarmament.
We do not face this challenge on a clean
slate. For we have held that this prohibition is
subject to and generally valid under intermediate
scrutiny. United States v. Staten, 666 F.3d 154 (4th
Cir. 2011). Harley accepts this holding, agreeing that
the prohibition is generally constitutional.4 Harley
4

(1) In United States v. Chester, we assumed that domesticviolence misdemeanants were covered by the Second
Amendment in the face of historical ambiguity. 628 F.3d 673,
681 (4th Cir. 2010); see also Staten, 666 F.3d at 160. However,
because those convicted of domestic violence misdemeanors
were not “law-abiding” and thus outside the Second
Amendment’s core protections, we held that intermediate
scrutiny applied to § 922(g)(9). Chester, 628 F.3d at 683. We
have also used this notion of “law-abiding” individuals to
preclude illegal aliens from the scope of the Second Amendment
entirely. United States v. Carpio-Leon, 701 F.3d 974, 979, 981
(4th Cir. 2012). But we have never defined what it means to be
“law-abiding.” See Tyler v. Hillsdale Cnty. Sheriff’s Dep’t, 837
F.3d 678, 689 (6th Cir. 2016). What we have made clear,
however, is that “any person committing any crime [does not]
automatically lose[] the protection of the Second Amendment”:
some “persons who commit some offenses might nonetheless
remain in the protected class of ‘law-abiding, responsible’
person[s].” Carpio-Leon, 701 F.3d at 981. Otherwise “the
Government could make an end-run around the Second
Amendment” through minor infractions, such as speeding.
Binderup v. Att’y Gen., 836 F.3d 336, 350–51 (3d Cir. 2016)
(making a similar argument in the context of defining felonies
broadly to escape Second Amendment scrutiny). And if
someone’s specific conviction did not remove them from the

App-21

argues
only
that
the
prohibition
cannot
constitutionally be applied to him because of his
“individual circumstances.” The district court
categorically rejected this argument and the
majority
follows
suit,
accepting
that
no
circumstances could ever create constitutional
concerns. I disagree. Under existing Second
Amendment precedent, this case should be sent back
to the district court so it can consider the particular
circumstances of Harley’s conviction.5
Second Amendment jurisprudence leaves
much to be desired.6 Even so, it permits Harley to
“law-abiding” core of the Second Amendment, then strict
scrutiny would apply. See Chester, 628 F.3d at 683. But Harley
does not claim that he remains a law-abiding person protected
by the core of the Second Amendment after his conviction.
(2) In no respect do I question the “sobering” realities of
domestic violence or the deadliness that guns bring to this
national crisis. United States v. Castleman, 572 U.S. 157, 159–
60 (2014).
6
(3) To be fair, some of the confusion stems from the
Supreme Court’s puzzling guidance in Heller. On the one hand,
the Court directed we look to text, history, and tradition to
understand the Second Amendment. Yet the Court also
instructed that “nothing in [its] opinion should be taken to cast
doubt on longstanding prohibitions on the possession of
firearms by felons and the mentally ill, or laws forbidding the
carrying of firearms in sensitive places such as schools and
government buildings, or laws imposing conditions and
qualifications on the commercial sale of arms.” 554 U.S. at 626–
27; see id. at 627 n.26 (describing these as examples of
“presumptively lawful regulatory measures”). Even as dictum,
this language casts a long shadow on lower courts. It is not
readily apparent how felon-dispossession laws or bans on
firearm possession by the mentally ill fit within the analytical
framework Heller directs we apply. So rather than develop a
cogent theory of the contours of the Second Amendment, we
often focus on whether a given regulation falls within the scope
5

App-22

bring his challenge based on his circumstances. For
a prohibition that is generally constitutional may
well be unconstitutional when applied to a particular
person whose circumstances take him outside the
ban’s justifications. See Hamilton v. Pallozzi, 848
F.3d 614, 626 n.11 (4th Cir. 2017); United States v.
Smoot, 690 F.3d 215, 221 (4th Cir. 2012). An asapplied challenge is “based on a developed factual
record and the application of a statute to a specific
person.” Educ. Media Co. at Va. Tech v. Insley, 731
F.3d 291, 298 n.5 (4th Cir. 2013) (emphasis added)
(quoting Richmond Med. Ctr. for Women v. Herring,
570 F.3d 165, 172 (4th Cir. 2009) (en banc)). And a
law that may be constitutional when applied to one
person may be unconstitutional as applied to
another. See Ayotte v. Planned Parenthood of N. New
England, 546 U.S. 320, 329 (2006).
We have considered a plaintiff’s particular
circumstances in an as-applied challenge before. See
United States v. Hosford, 843 F.3d 161, 169–70 (4th
Cir. 2016). In Hosford, we engaged in a fact-specific
as-applied inquiry after finding a licensing scheme
for firearms dealers facially valid. Looking to
Hosford’s particular circumstances, we found that
the law was constitutional as applied: “the
government’s interests in the law generally also
justify applying the law to Hosford” since Hosford’s
conduct in selling firearms without background
checks was exactly the problem Congress was trying
to solve. Id. We thus asked whether an otherwise
valid law could constitutionally apply to Hosford’s
of Heller’s list. Cf. United States v. McCane, 573 F.3d 1037,
1047–50 (10th Cir. 2009) (Tymkovich, J., concurring).

App-23

own circumstances based on the government’s
interest. See Insley, 731 F.3d at 298 (“[T]he state
must justify the challenged regulation with regard to
its impact on the plaintiffs.”).
Similarly, the Sixth Circuit remanded an
as-applied challenge to the law disarming the
mentally ill because the government had not
justified the restriction based on plaintiff’s specific
circumstances. Tyler, 837 F.3d at 686, 699. The Sixth
Circuit agreed that the fit did not need to be perfect,
but “the amount of overreach must be reasonable,
and it is the government’s burden, not [the
challenger’s], to prove that [the law’s] scope is in
proportion to the interest served.” Id. at 698
(internal quotation marks omitted).
This approach also applies to a First
Amendment as-applied challenge.7 For example, in
Insley we declared that an otherwise valid restriction
on alcohol advertisements in school newspapers
violated the First Amendment as applied to a couple
of college papers. 731 F.3d at 294, 296, 302. As those
particular papers had a majority of readers over the
age of 21, we found that the restrictions were too
broad and failed to further a legitimate government
interest under intermediate scrutiny. Id. at 301.
We also should review a plaintiff’s
particular circumstances where a disarmament law
hinges on state-law convictions. We have permitted
such as-applied challenges to the federal-felon7
(4) We often look to First Amendment law as a
guidepost for Second Amendment claims. Kolbe v. Hogan, 849
F.3d 114, 133 (4th Cir. 2017) (en banc); Chester, 628 F.3d at
682.

App-24

disarmament law (§922(g)(1)) because of its broad
scope despite the law being “presumptively valid”
and Congress creating no exceptions to its sweep.
See Smoot, 690 F.3d at 221; United States v. Moore,
666 F.3d 313, 319–20 (4th Cir. 2012). And although
we have never had a successful as-applied challenge
to
the
felon-disarmament
law,
we
have
acknowledged that the success of an as-applied
challenge is “theoretically” possible where a
challenger’s “factual circumstances remove his
challenge from the realm of ordinary challenges.”
Moore, 666 F.3d at 319–20; see United States v.
Pruess, 703 F.3d 242, 245–47 (4th Cir. 2012)
(rejecting challenge to the felon-disarmament law as
applied to a plaintiff with a non-violent conviction
after finding that more than twenty convictions
placed him outside the Second Amendment’s core).
The Third Circuit has largely adopted this
approach for as-applied challenges to the felondisarmament law (§922(g)(1)). That court permitted
plaintiffs to challenge the constitutionality of
applying the law based on their specific state
convictions. Binderup, 836 F.3d at 350–53. After
reviewing plaintiffs’ convictions, the court found that
they were not serious enough to remove plaintiffs
from the Second Amendment’s protection in part
because the state convictions were labeled as
misdemeanors and led to minor punishments,
showing that the convictions were not “serious.” Id.
The court then found that the government failed to
meet its burden under intermediate scrutiny because
it offered no evidence “explaining why banning
people like them (i.e., people who decades ago
committed similar misdemeanors) from possessing

App-25

firearms promotes public safety” while plaintiffs
provided evidence of their low likelihood of future
danger or recidivism. Id. at 353–56.
When we recently considered the felondisarmament law (§922(g)(1)), we favorably cited the
analysis of Binderup and noted that a plaintiff’s
particular facts may be relevant for other
disarmament laws. Hamilton, 848 F.3d at 625–26,
626 n.12. We rejected an as-applied challenge for
anyone convicted of a crime designated by the state
as a felony. But we did not reject considering
particular facts in an as-applied challenge. In fact,
we recognized the felon-disarmament law might
encompass a crime that state law does not consider a
felony but that falls within the federal definition (“a
crime punishable by imprisonment for a term
exceeding one year,” §922(g)(1)). And in that
instance, a court may conduct individualized
scrutiny based on the particular circumstances of the
offender. See id. at 626 n.11. So where the state
treats a conviction as a misdemeanor, like in
Binderup, we can look at specific facts underlying
the conviction at issue, even for intermediate
scrutiny. And in doing so, we can see whether the
government’s legitimate interests are furthered by
applying the law to the particular facts underlying
plaintiff’s state conviction.
To frame Harley’s challenge to the law
disarming domestic-violence misdemeanants (§922
(g)(9)), we must first explore the law’s justifications
and scope. In 1996, Congress justified enacting
§922(g)(9) because existing laws disarming felons
“were not keeping firearms out of the hands of

App-26

domestic abusers, because ‘many people who engage
in serious spousal or child abuse ultimately are not
charged with or convicted of felonies.’” United States
v. Hayes, 555 U.S. 415, 426 (2009) (emphasis added)
(quoting 142 Cong. Rec. 22985 (1996) (statement of
Sen. Lautenberg)); United States v. Chovan, 735
F.3d 1127, 1140 (9th Cir. 2013) (noting that
Congress was targeting those who “demonstrated
violence”). Thus, Congress sought to “close this
dangerous loophole” and prevent serious domesticviolence offenders from possessing firearms. Hayes,
555 U.S. at 426 (quoting 142 Cong. Rec. 22986).8 To
do so, §922(g)(9) bans the possession of a gun by an
individual who has “been convicted in any court of a
misdemeanor crime of domestic violence.” And a
“misdemeanor crime of domestic violence” includes
(1) any state-law misdemeanor that (2) “has, as an
element, the use or attempted use of physical force,
or the threatened use of a deadly weapon” and that
is (3) committed by a family member of the victim.
18 U.S.C. § 921(a)(33)(A).
In Staten, we rejected one Second
Amendment challenge to §922(g)(9). 666 F.3d at 167.
Based on the law’s justification and supposed narrow
8
(5) We do not cite this legislative history in order to
interpret the statute and suggest that non-serious domestic
violence offenses are not covered by the text. Rather, it serves
to highlight the Government’s interest and the law’s fit. Staten,
666 F.3d at 161 (using legislative history to show the
government’s interest in reducing domestic gun violence).
When a law applies far outside its justification, constitutional
concerns may be raised in as-applied constitutional challenges.
We do not face a question about what Congress meant, for we
all agree the text of the statute covers Harley. We ask instead
whether that application is constitutional.

App-27

scope, we rejected the claim that §922(g)(9) could not
be constitutionally applied to Staten.9 We found
that the government had established a reasonable fit
between § 922(g)(9)’s “narrow” prohibitory sweep
and the government’s interest in “reducing domestic
gun violence and keeping firearms out of the hands
of: (1) persons who have been convicted of a crime in
which the person used or attempted to use force
capable of causing physical pain or injury” against a
family member “and (2) persons who have
threatened the use of a deadly weapon against” a
family member. 666 F.3d at 167 (emphasis added).
To establish this reasonable fit, the government
showed that: Domestic violence was a serious issue,
recidivism rates were high for domestic violence
misdemeanants, firearms are too often used in
connection with domestic violence, and firearms
increase and are often connected to injuries and
homicides related to domestic violence. Id.
On first glance, the scope of §922(g)(9)’s ban
appears to be narrowly focused. But as a result of
recent Supreme Court decisions, it may now sweep
beyond its design to encompass conduct outside its
original justifications in two meaningful ways. First,
9 (6) The record reveals that Staten had at least three
domestic-violence convictions, including one for repeatedly
beating his second wife with a closed fist. See Joint Appendix
304–06, United States v. Staten, 666 F.3d 673 (No. 10-5318).
Unsurprisingly, Staten never argued that the nature of those
convictions (or his multiple other arrests for domestic-violence
offenses and for violating protective orders, id.) mattered to his
challenge. See Appellant Br. 6–7, 26–32, United States v.
Staten, 666 F.3d 673 (No. 10-5318), Dkt. No. 17. And so we did
not address the specifics of his prior conduct in rejecting his
claims.

App-28

the “use of physical force” that is a necessary
element of a “misdemeanor crime of domestic
violence” includes any “offensive touching,” not just
violent force. United States v. Castleman, 572 U.S.
157, 162–63 (2014). Compare id., with Johnson v.
United States, 559 U.S. 133, 140, 143 (2010) (holding
that the “use of physical force” in § 924(e)(2)(B)(i)’s
definition of a “violent felony” requires “violent
force”). Second, that offensive touching need not be
intentional, since the Supreme Court has held that §
922(g)(9) encompasses a state crime requiring only
reckless conduct. Voisine v. United States, 136 S. Ct.
2272, 2280 (2016).
This expanded scope is illustrated by the
law Harley was convicted under, Virginia Code §
18.2-57.2. A conviction under that Virginia law does
not require the use of violent force but may be
satisfied with an “offensive touching.” United States
v. White, 606 F.3d 144, 147–48 (4th Cir. 2010),
abrogated on other grounds by Castleman, 527 U.S.
at 167–68. And it also criminalizes both the
intentional use of force and the reckless use of force.
See Clark v. Commonwealth, 691 S.E.2d 786, 788–89
(Va. 2010) (stating that a common-law definition of
assault and battery applies to §18.2-57.2); see also
Trent v. Commonwealth, No. 1844–03–02, 2004 WL
1243037, at *1 (Va. Ct. App. June 8, 2004) (stating
that Virginia law imputes an intent to do bodily
harm to the defendant if he acts with “reckless and
wanton disregard of the lives and safety of others”);
Morrison v. Commonwealth, No. 2645-00-2, 2002 WL
663641, at *2 (Va. Ct. App. Apr. 23, 2002) (finding
that assault and battery includes acting “in a
manner of reckless and wanton disregard”). The

App-29

breadth of Virginia Code §18.2-57.2 does not remove
Harley’s conviction from the reach of §922(g)(9)’s
use-of-physical-force requirement now that the
Supreme Court has made clear that an “offensive
touching” qualifies as “physical force” and the nonintentional reckless use of that force suffices.
Castleman, 572 U.S. at 162–63; Voisine, 136 S. Ct. at
2280.
But these same broad interpretations of
§922 (g)(9) create the potential to ensnare
individuals who fall outside the ban’s justifications
and whose conduct may not permanently deprive
them of their individual right to possess a gun for
self-defense. Consider a wife spitting on her spouse
or knocking him off an ATV through reckless
driving. Cf. Castleman, 572 U.S. at 165 n.5 (citing
sources for the proposition that physical forms of
domestic violence “may include spitting” or
“relatively minor assaults such as painful pinching
or squeezing”); White, 606 F.3d at 148 (noting that
Virginia has long held that battery may be
accomplished by the slightest touch, including
spitting (citing Hardy v. Commonwealth, 58 Va. (17
Gratt.) 592, 601 (1867))); Davis v. Commonwealth,
143 S.E. 641, 643 (1928) (permitting battery
conviction based on reckless driving). Those
examples, though it is perhaps fanciful to think that
such conduct would be prosecuted, would fall outside
the type of serious abuse likely to lead to recidivism
and firearm violence that justified §922(g)(9)’s
lifetime firearm dispossession.
Harley’s own case—at least as alleged—is
less clear but also highlights the statute’s broad

App-30

scope. Nearly thirty years ago, Harley paid a $75
fine after pleading guilty to a misdemeanor domestic
assault charge under Virginia Code §18.2-57.2. As
Harley alleges,
[t]he charge was based on a single, one off
incident[:] Mr. Harley and his wife had an
argument while she was inside a SUV and he
was standing outside the vehicle. He stood on
the running board and reached into the
vehicle to turn it off, and she pushed him. He
reached inside the vehicle to hold on and, in so
doing, he grabbed her arm.
J.A. 9. During the incident, there “was no punching,
slapping, hitting, or violence.” Id. While Harley and
his wife later separated and divorced, they
“remained on friendly and amicable terms working
collaboratively to successfully raise their children.”
Id. Harley provided an affidavit from his ex-wife
supporting his version of the incident underlying his
conviction. J.A. 23–24.
The government, citing a police report,
suggests that Harley’s actions were more serious and
perhaps not a lone incident. See Appellee Br. 3; J.A.
73. Maybe so. But the district court ignored the
conduct underlying the conviction, believing it was
not germane, and granted summary judgment for
the government. In doing so, the court disregarded
Harley’s particular conviction. But the conduct
underlying the conviction may create an avenue for a
successful as-applied challenge. Because this
conduct was in dispute and because we cannot
resolve “genuine disputes of fact in favor of the party
seeking
summary
judgment,”
Jones
v.

App-31

Chandrasuwan, 820 F.3d 685, 691 (4th Cir. 2016)
(quoting Tolan v. Cotton, 572 U.S. 650, 656 (2014)),
the proper course for the district court was to deny
the government’s motion at this stage, see Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986). It
may of course be true that Harley shoved and struck
his ex-wife as the government alleges. But it may
also be true that his conviction stemmed from a
reckless offensive touching as Harley contends. And
if that is the case, then the district court should
consider in the first instance whether those actions
are constitutionally sufficient to deprive Harley of
the right to keep and bear arms under the Second
Amendment.10
(7) As we recognized in Hamilton, how a sovereign
state labels and treats a crime bears on whether one convicted
of it may be constitutionally deprived of all Second Amendment
rights. 848 F.3d at 626 & n.11. In Hamilton, we rejected the
claim that§922(g)(1) was unconstitutional as applied to an
individual convicted of credit-card fraud, theft, and forgery—
state-law felonies. Id.at 627–28. There is ongoing debate on
whether felons have historically been disarmed because of the
danger they pose to the public or because of their lack of virtue.
See Binderup,836 F.3d at 348–49 (stating that the right to bear
arms is tied to virtuous citizenry); Folajtar v. Att’y Gen. U.S.,
980 F.3d 897, 924 (3d Cir. 2020) (Bibas, J., dissenting) (stating
that the right to bear arms is tied to dangerousness); Kanter v.
Barr, 919 F.3d 437, 451 (7th Cir. 2019) (Barrett, J., dissenting)
(same). But either way, in analyzing the constitutionality of §
922(g)(1), we have afforded significant weight to the state’s
belief of how dangerous or unvirtuous those convicted of
particular crimes are. Hamilton, 848 F.3d at 626. In Hamilton,
the state’s designation was so important to our reasoning that
we held that an individual convicted of a law a state labels a
felony cannot succeed in an as-applied challenge to §922(g)(1).
Id.at 625–26.Adhering to Hamilton, we should look to the state
sovereigns in the context of § 922(g)(9).Unlike §922(g)(1), we
know the justification for disarming domestic-violence
10

App-32

Yet the majority categorically determines
that someone like Harley may not challenge
§922(g)(9)’s prohibition based on individual
circumstances taking them outside the “realm of
ordinary challenges.” Majority Op. 8-10 (quoting
Smoot, 690 F.3d at 221). Such a challenge is
permissible, the majority notes, for felondisarmament laws like §922(g)(1). But the majority
excludes §922(g)(9) from such a challenge for three
reasons:
(1) Staten forecloses an individualized as-applied
challenge to §922(g)(9); (2) §922(g)(9) has no
enumerated exceptions; and (3) §922(g)(9) is
supposedly a narrow, uniform law. But none of these
reasons justify categorically foreclosing Harley’s asapplied challenge.11
The majority’s reliance on Staten to
categorically
reject
any
consideration
of
individualized circumstances in an as-applied
challenge to a conviction under §922(g)(9)
impermissibly overlooks the rationale of Staten. See
misdemeanants: to prevent serious domestic violence offenders
from possessing guns and harming family members. See Hayes,
555 U.S. at 426. And along with the alleged circumstances of
the offense, Harley alleges that he was punished with only a
$75 fine (the maximum allowable punishment was
imprisonment for less than a year and a fine of $2,500, see Va.
Code Ann. §§18.2-57.2, -11) and was not prohibited by the
Commonwealth from possessing a firearm.
11 (8) Nor does reason indulge such a conclusion when one
considers that the majority’s holding leaves us applying a more
exacting constitutional analysis to §922(g)(1), a presumptively
lawful regulation under Heller, than to §922(g)(9), a law which
carries no such presumption. See Staten,666F.3d at 160 (stating
§922(g)(9) is not presumptively lawful under Heller).

App-33

Majority Op. 8. In Staten, we rejected plaintiff’s asapplied
challenge
to
§922(g)(9).
Applying
intermediate scrutiny, we upheld the law as a
reasonable fit between reducing gun violence and the
disarmament. Staten, 666 F.3d at 167. But we
expressly relied on the supposed narrow scope of
§922(g)(9) in doing so. At that time, we had held that
§922(g)(9) required “the use or attempted use of force
capable of causing physical pain or injury to another
or the threatened use of a deadly weapon [as] an
element of the” disqualifying domestic-violence
misdemeanor. Id.at 162. The government had
shown that there was a reasonable fit between
reducing domestic gun violence and keeping guns
out of the hands of individuals convicted of those
domestic-violence misdemeanors. Id. at 167. As a
result, any overbreadth of §922(g)(9), as then
defined, “merely suggests that the fit is not perfect.”
Id.
But in finding §922(g)(9) was narrow and met
the reasonable-fit standard, we relied on White’s
holding that “offensive touching” was excluded from
§922(g)(9)’s scope. See Staten, 666 F.3d at 163
(“§922(g)(9) does not apply to persons convicted of a
misdemeanor for using or attempting to use force
against a spouse which is incapable of causing
physical pain or injury to another, such as an
offensive touching in a common law battery.” (citing
White, 606 F.3d at 153)). But Castleman overruled
White and invalidated Staten’s premise that
§922(g)(9) has a narrow scope. See United States v.
Carthorne, 878 F.3d 458, 468 (4th Cir. 2017)
(recognizing the abrogation of White). Now that the
Supreme Court has mandated a broader scope for

App-34

§922(g)(9), Staten cannot control the outcome of
Harley’s challenge.
Perhaps Staten would control if a
hypothetical domestic-violence misdemeanant was
convicted of a crime requiring the intentional use of
“force capable of causing physical pain or injury.”
Staten, 666 F.3d at 167. But, as a result of
Castleman and Voisine, it has little applicability to
convictions that stem from a reckless offensive
touching. It may turn out that the government can
show that Harley intentionally used the type of force
that Staten found that Congress could regulate. But
Harley’s alleged conduct was merely reckless
offensive touching, and that was excluded from
Staten’s analysis of § 922(g)(9). And that is reason
enough to consider Harley’s as-applied challenge.
Even so, the majority takes Staten to mean
that an individualized consideration is never
warranted in an as-applied challenge to § 922(g)(9).12
This overlooks not only our now-rejected
interpretation of §922(g)(9) but also the substance of
Staten’s challenge. Given Staten’s extensive record
of criminal conduct, he never argued that his factual
circumstances or the nature of his convictions made
the ban unconstitutional as applied to him in
(9) The majority also states that even in a context
where an individualized consideration is warranted, such
consideration is only a “theoretical possibility.” Majority Op. 10.
The majority mistakenly relies on Moore for this assertion.
Moore says that theoretically, “a case might exist in which an
as-applied Second Amendment challenge to § 922(g)(1) could
succeed.” 666 F.3d at 320 (emphasis added). This addresses the
rare success of challenges to § 922(g)(1), not how often we
evaluate individual characteristics.
12

App-35

particular. See supra, n.6. Instead, he argued that
the law was unconstitutional as applied to anyone
convicted of misdemeanor crimes of domestic
violence. Appellant Br. 6–7, 26–32, United States v.
Staten, 666 F.3d 673 (No. 10-5318), Dkt. No. 17.
Harley does not challenge §922(g)(9) without regard
to his unique circumstances. Instead, he accepts
that §922(g)(9) is generally constitutional, arguing
only that it is unconstitutional when applied to him,
an individual convicted thirty years ago of a
misdemeanor crime of domestic violence allegedly
based on a reckless offensive touching. Cf. Hamilton,
848 F.3d at 626 n.11. This fundamentally different
challenge Harley raises cannot be controlled by
Staten’s rejection of that plaintiff’s claim. See
Dahnke-Walker Milling Co. v. Bondurant, 257 U.S.
282, 289 (1921) (“A statute may be invalid as applied
to one state of facts and yet valid as applied to
another.”).
Nor is §922(g)(9)’s lack of enumerated exceptions
a reason to preclude an individualized as-applied
analysis.
The majority believes that where a
“statute imposes a flat prohibition, with no reference
to individual circumstances occurring after the
disqualifying crime,” no constitutional exceptions
can be created. Majority Op. 8. Nevertheless, the
majority simultaneously notes that §922(g)(1)—a
statute that “imposes a flat prohibition, with no
reference to individual circumstances occurring after
the disqualifying crime”—is so broad that
constitutional exceptions can be created. Id. at 9.
Assuredly, the lack of enumerated exceptions in a
statute does not preclude the success of a
constitutional challenge based on one’s particular

App-36

circumstances. Otherwise, as-applied challenges
would disappear, and this cannot be so. See United
States v. Treasury Emps., 513 U.S. 454, 477–78
(1995) (stating a strong preference for as-applied
challenges); see also Richard H. Fallon, Jr., AsApplied and Facial Challenges and Third-Party
Standing, 113 HARV.L.REV. 1321, 1328 (2000) (“Asapplied challenges are the basic building blocks of
constitutional adjudication.”).
In that world,
individuals either fall within exceptions enumerated
in the statute or they do not, in which case there is
no recourse for potentially unconstitutional
prohibitions.13
The majority’s argument then retreats to its last
defense: breadth. First, the breadth of a statute is
not dispositive in deciding whether individualized
scrutiny is required. The relevant question in an asapplied analysis is whether the law applies
unconstitutionally
in
only
some
factual
circumstances. See Insley, 731 F.3d at298& n.5;
Herring, 570 F.3d at 172. Of course, the broader a
statute, the more likely it is that these challenges
succeed, but that does not mean that a narrower law
13 (10) Judge Wynn asserts that an individual disarmed
by statute may not turn to the Constitution because the
executive is empowered to grant discretionary relief under 18
U.S.C. § 925(c), as discussed in United States v. Bean, 537 U.S.
71 (2002). First, the Concurrence itself notes that this
discretionary relief is unavailable because of a lack of funding.
Second, Bean dealt with administrative-law discretion and
addressed no constitutional issues, much less blessed all
federal-disarmament statutes as constitutional. 537 U.S. at 7479. But even more to the point, I struggle to see how this
discretionary power for an executive official to grant relief (or a
state’s pardon power) eliminates the ability to bring a Second
Amendment constitutional challenge.

App-37

is immune from attack. All that is needed for a
successful as-applied challenge is “one state of facts”
where the statute applies unconstitutionally. Ayotte,
546 U.S. at329. Congress’s specificity, or lack
thereof, in crafting laws cannot sidestep our judicial
review. See id.14

11

But even if the breadth of a statute could
preclude any individualized scrutiny, we now know
that §922(g)(9) covers sufficiently divergent conduct
to warrant this individualized consideration. The
majority continues to insist that §922(g)(9) is a
narrow and focused statute. See Majority Op. 8–9;
cf. Staten, 666 F.3d at 162–63 (the “term
14
(11) The government’s reliance on United States v.
Carter, 669 F.3d 411 (4th Cir. 2012), is no more availing. Carter
argued that § 922(g)(3)’s bar on possessing a firearm while
being an unlawful drug user or addict could not constitutionally
be applied to him as a user of only marijuana. Carter, 669 F.3d
at 417, 420. Noting that the government had failed to put
forward any academic research or empirical studies to carry its
burden of proving a reasonable fit between its interest in
protecting the community from gun violence and § 922(g)(3),
this Court vacated the district court’s judgment and remanded.
Id. at 413, 418. But we did so only after addressing Carter’s
particularized argument that a user of marijuana could not be
disarmed because any risk associated with mixing drugs and
guns is limited to dealers of drugs. Id. at 420. We found that
many risks that apply to dealers of marijuana would apply to
users as well: Risks, such as the “loss of self control” and the
“need to deal with sellers of drugs and to enter black markets
doing so[,] . . . along with heightened financial costs, might be
shown to drive many users [of marijuana] to a life of crime.” Id.
Far from holding that no individualized scrutiny was permitted
under § 922(g)(3), we remanded for the government to produce
evidence showing that disarming users of marijuana, a subset
of those covered by § 922(g)(3), substantially furthered its
interest in protecting the community from gun violence. Id. at
417–21.

App-38

‘misdemeanor crime of domestic violence,’ as
construed in White, 606 F.3d at 155, keeps
§922(g)(9)’s prohibitory sweep narrow”). But as
already discussed, the Supreme Court’s cases since
Staten broadened the reach of §922(g)(9) so that it
covers an offender who only recklessly caused an
offensive touching.
Harley’s alleged individualized circumstances
plausibly place him outside the realm of ordinary
challengers to §922(g)(9). And Staten does not
preclude his challenge given the intervening
Supreme Court directives and the different challenge
presented there. Nor does anything inherent in
§922(g)(9) preclude us from considering Harley’s
individualized circumstances in an as-applied
challenge.
So the district court should have
considered whether Harley’s circumstances permit
permanently depriving him of the right to keep and
bear arms under the Second Amendment.
***
An individual falling within a statutory
prohibition that can be constitutionally applied to
some may still challenge whether the prohibition can
be constitutionally applied to him. That fundamental
principle should apply equally to the individual right
enumerated in the Second Amendment. Harley
plausibly claims that §922(g)(9) cannot be
constitutionally applied to him as an individual with
a nearly thirty-year-old misdemeanor conviction for
recklessly causing an offensive touching. We should
not categorically reject that claim. Accordingly, I
respectfully dissent.

App-39

IN THE UNITED STATES
DISTRICT COURT
FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
ROBERT TIMOTHY HARLEY,
v.

Case No. 1:18-cv-396

WILLIAM BARR,
Attorney General of the United States
Defendant.
MEMORANDUM OPINION
Nearly thirty years ago plaintiff was
involved in a domestic incident with his ex-wife and
was convicted of misdemeanor assault and battery of
a family member, in violation of Va. Code §18.2-57.2.
Under federal law, specifically 18 U.S.C. §922(g)(9),
plaintiff’s 1993 misdemeanor domestic assault
conviction makes it illegal for him to possess a
firearm. Plaintiff, who, as the record also reflects,
has a long history of public service, now challenges
the constitutionality of §922(g)(9) as applied to him.
Simply put, plaintiff argues that one misdemeanor
conviction nearly thirty years ago should not
preclude him from possessing a firearm for the rest
of his life. He believes that under his specific
circumstances, §922(g)(9) unconstitutionally violates
his Second Amendment right to keep and bear arms.
Thus, he seeks summary judgment in his favor, a

App-40

decision that would allow him to possess firearms
legally again.
For its part, the government has moved for
summary judgment, noting that each federal court of
appeals to consider arguments like plaintiff’s has
rejected as-applied challenges to §922(g)(9). In other
words, according to the government, §922(g)(9) has
no good behavior exception or expiration provision
and is not rendered unconstitutional simply because
a former perpetrator of a domestic violence
misdemeanor behaves himself for any particular
period of time.
For the reasons that follow, the government’s
motion for summary judgment must be granted and
plaintiff’s motion must be denied.
I.
The essential and material facts of this case are
undisputed. They are as follows:
* In July of 1993, plaintiff was convicted in
Fairfax County Juvenile and Domestic Relations
Court committing misdemeanor assault under Va.
Code §18.2-57.2 following the entry of a guilty plea.
* This conviction arose after plaintiff called the
Fairfax County Police Department and reported to
the police that he and his then-estranged wife,
Angela, had argued and gotten into a physical
altercation.
* Plaintiff has not committed any other crimes
since 1993.

App-41

* Plaintiff worked thirty (30) years for Fairfax
County Public Works and was recognized for his
contributions to the public upon his retirement.
*
Plaintiff also served as a volunteer
fireman/EMT for many years and was highly
decorated for this service.
Because there is “no genuine dispute as to [these]
material fact[s]” and because both parties have filed
motions for summary judgment, at least one party
“is entitled to judgment as a matter of law.” Celotex
v. Catrett, 477 U.S. 317, 322 (1986).
II.
The operative statutory subsection in this case,
§922(g)(9),15 was added to the statute in 1997 after
Congress recognized that existing felon-in possession
laws “were not keeping firearms out of the hands of
domestic abusers, because ‘many people who engage
in serious spousal or child abuse ultimately are not
charged with or convicted of felonies.’” United States
v. Hayes, 555 U.S. 415, 426 (2009) (quoting 142
Cong. Rec. 22,985 (1996) (statement of Sen.
Lautenberg)). Section 922 (g)(9) attempts to close
this “’dangerous loophole,’” by extending the federal
firearm prohibition to persons convicted of
“’misdemeanor crime[s] of domestic violence.’” Id.
(quoting 142 Cong. Rec. at 22,986 (statement of Sen.
Lautenberg)) (alteration in original).

15
(1) 18 U.S.C. §922(G)(9) provides that “[i]t shall be
unlawful for any person … who has been convicted in any court
of a misdemeanor crime of domestic violence to ship or
transport in interstate or foreign commerce, or possess in or
affecting commerce, any firearm or ammunition…”

App-42

Plaintiff, having been convicted of misdemeanor
family assault, plainly falls within the group of
individuals Congress intended to preclude from
possessing firearms. And because the facial validity
of §922(g)(9) has not been challenged here, nor has it
been successfully challenged elsewhere,16 Id.
The first step in the two-part analysis
announced by Chester and Staten requires the
district court to ask, “whether the challenged law
imposes a burden on conduct falling within the scope
of the Second Amendment’s guarantee.” Chester,
628 F. 3d at 680. This is a “historical inquiry” that
“seeks to determine whether the conduct at issue
was understood to be within the scope of the right at
the time of ratification.” Id. Analysis ends if the
challenged law imposes a burden on conduct that
falls outside the Second Amendment’s protection as
understood at the time of ratification; but the
analysis proceeds if the challenged law prohibits
conduct that would have been protected by the
Second Amendment in 1791.17 Id.

(2) See, e.g., United States v. Booker, 644 F.3d 12, 24
(1st Cir. 2011) (“[Section]922(g)(9) fits comfortably among the
categories of regulations that Heller suggested would be
presumptively lawful.”) (internal marks and citation omitted);
United States v. Donovan, 410 F. App’x 979, 981 (7th Cir. 2011)
(“[W]e [have] upheld the categorical disarmament of domesticviolence misdemeanants such as Donovan.”); United States v.
Skoien, 614 F.3d 638, 645 (7th Cir. 2010) (“[A[ disqualificationon-conviction statute such as §922(g)(9) [ ] is generally
proper.”); United States v. Smith, 742 F. Supp. 2d 855,869
(S.D.W. Va. 2010).
17 (4) The core right of the Second Amendment is “the
right of law-abiding, responsible citizens to use arms in defense
of hearth and home.” D.C. v. Heller, 554 U.S. 570, 635 (2008).
16

App-43

Most courts considering as-applied challenges to
§922(g)(9) have assumed, arguendo, that §922(g)(9)
prohibits conduct that would have been protected by
the Second Amendment at the time of ratification18
and therefore that domestic violence misdemeanants
have intact Second Amendment rights that require
“some measure of protection.” Staten, 666 F.3d at
160.
This sensible assumption avoids the
historically complicated inquiry into whether the
founding generation would have understood that
persons convicted of domestic violence misdemeanors
would no longer possess their right to bear arms as
the result said conviction. On this record, there is no
compelling historical evidence that domestic violence
misdemeanants would have lost their right to
possess weapons at the time of the ratification of the
Second Amendment.19 Thus, for purposes of the
analysis here, it is assumed that plaintiff’s Second
Amendment rights remain intact and therefore
analysis properly proceeds to the second step of the
Fourth Circuit’s framework for deciding as-applied
constitutional challenges.
At this step, the
government bears the burden of establishing that
Congress’s means, i.e. the categorical prohibition on
18 (5) The Fourth Circuit recognized in United States v.
Carter, 669 F.3d 411, 416 (4th Cir. 2012) that it has avoided the
first step analysis on three occasions by assuming without
deciding that the individual at issue had protectable rights
under the Second Amendment. See Chester, 628 F.3d at 683;
Staten, 666 F.3d at 160; United States v. Masciandaro, 638
F.3d 458, 456 (4th Cir. 2011)
19
(6) In Stimmel, the Sixth Circuit noted that no
historical evidence had been presented “establishing that
individuals who physically abused their family members or
intimate partners were historically restricted from bearing
arms.” 879 F.3d at 205.

App-44

possession of firearms by domestic violence
misdemeanants, fits the end, i.e. the goal of
protecting individuals from domestic gun violence.
Id. at 161.
B.
The second stop in the Fourth Circuit’s two-step
analysis requires the district court to determine and
apply “the appropriate form of means-end scrutiny.”
Staten, 666 F.3d at 159.
In this respect, the
appropriate level of scrutiny is intermediate
scrutiny. Id. (“[W]e held that intermediate scrutiny
is the appropriate standard to analyze a challenge to
§922(g)(9) under the Second Amendment.”).
Therefore, at step two the government must show “a
reasonable fit between the challenged regulation and
a substantial government objective.” Chester, 628
F.3d at 683.
There is no doubt that the government has an
important interest in protecting individuals from
gun violence perpetrated by domestic abusers. In
this respect, the Fourth Circuit has made
unmistakably clear that §922(g)(9) serves a
substantial government objective and that §922(g)(9)
is reasonably tailored in the ordinary case to achieve
the government’s important goal of reducing
domestic gun violence. In Staten, Judge Hamilton,
joined by Judges Agee and Wynn, made clear that
domestic gun violence is a serious problem in this
country:
[T]he “government has established that: (1)
domestic violence is a serious problem in the
United States; (2) the rate of recidivism
among domestic violence misdemeanants is

App-45

substantial; (3) the use of firearms in
connection with domestic violence is all too
common; (4) the use of firearms in connection
with domestic violence increases the risk of
injury or homicide during a domestic violence
incident; and (5) the use of firearms in
connection with domestic violence often leads
to injury or homicide.
666 F.3d at 167. Given the seriousness of the
problem Congress sought to remedy by passing
§922(g)(9), the Staten panel concluded that:
These established facts along with logic and
common sense compel us to hold that the
government has carried its burden of
establishing a reasonable fit between the
substantial government objective of reducing
domestic gun violence and keeping firearms
out of the hands of: (1)persons who have been
convicted of a crime in which the person used
or attempted to use force capable of causing
physical pain or injury to another against a
spouse, former spouse, or other person with
whom such person had a domestic
relationship specified in §921(a)(33)(A); and
(2) persons who have threatened the use of a
deadly weapon against such a person.
Id.
Although instructive here, the Staten
decision left unresolved the precise question
presented by plaintiff in this case, namely whether
§922(g)(9), as applied to an individual who has been
a model citizen for thirty years but for one
misdemeanor
domestic
violence
conviction,

App-46

impermissibly restricts conduct that falls outside the
government’s stated objective of reducing domestic
gun violence. In other words, plaintiff challenges the
link between a thirty (30) year old misdemeanor
conviction for domestic violence and any present
threat plaintiff poses for committing domestic gun
violence. Distilled to its essence, plaintiff contends
that §922(g)(9) is overinclusive as applied to him.
The Fourth Circuit in Hamilton recently
responded to a similar argument, noting that
“evidence of rehabilitation, the likelihood of
recidivism, and the passage of time: are insufficient
to render an otherwise constitutional felon-inpossession statute unconstitutional. Hamilton v.
Pallozzi, 848 F.3d 614, 629 (4th Cir.), cert. denied,
138 S. Ct. 500 (2017) (holding that plaintiff in that
case, a state-law felon, could not rely on evidence of
rehabilitation and passage of time to demonstrate
that he had now become a law-abiding citizen and
was entitled to the core protections of the Second
Amendment). But the Fourth Circuit left open the
question whether other sub-sections of §922(g) might
be subject to as-applied challenges based on similar
arguments regarding passage of time and
rehabilitation. Id. at 626, fn.12 (“We expressly do
not close these off as being potentially relevant
inquiries in bringing as-applied challenges to other
disarmament laws, for example, laws disarming the
mentally ill such as 18 U.S.C. §922(g)(4).”).
In this regard, the Fourth Circuit in
Hamilton specifically noted the Sixth Circuit’s recent
en banc decision in Tyler v. Hillsdale Cty. Sheriff’s
Dep’t., 837 F.3d 678 (6th Cir. 2016) (en banc), which

App-47

held that the federal disarmament provision for the
mentally ill, namely 18 U.S.C. §922(g)(4), was
unconstitutional as-applied to a person who was
involuntarily committed thirty years ago during a
brief episode of depression and had subsequently
lived a mentally healthy, law-abiding life. Id. Tyler
is, at first glance, helpful to plaintiff; however, upon
closer inspection it is clearly distinguishable from
this case. Tyler involves §922(g)(4), which precludes
individuals who have been adjudicated “mentally
defective” or who have “been committed to a mental
institution” from possessing a firearm. As noted in
Tyler, in the context of voluntary and involuntary
mental health commitments, an individual can
present persuasive medical evidence that he or she
has recovered from a metal health defect and is no
longer a threat to society. Because an individual
can, on a case-by-case basis, demonstrate that he or
she falls outside the intended reach of §922(g)(4), the
Sixth Circuit considered evidence of rehabilitation
and passage of time. But in the context of §922(g)(9),
such evidence is irrelevant because unlike an
individual with a diagnosed mental health condition,
a
domestic
violence
misdemeanant
cannot
demonstrate that he or she has been cured or has
recovered from engaging in violent domestic abuse.
To the contrary, social science date demonstrates
that domestic abusers recidivate at significant rates
and that oftentimes domestic abusers escalate the
level of violence.20
Therefore, the means/end
analysis for §922(g)(4) is different from the
means/end analysis for §922(g)(9).
(7) See Exhibits 2, 3, 4 and 5 to Def.’s Mem. In Opp. to
Pl.’s Mot. Sum. J. (Docs. 21-2, 21-3, 21-4 and 21-5).
20

App-48

The Fourth Circuit has never directly
addressed the argument raised by plaintiff in this
case, namely whether the passage of time combined
with demonstrated rehabilitation invalidates an
otherwise constitutional prohibition on the
possession of firearms by misdemeanant domestic
abusers. But importantly, several other circuits
have addressed and rejected plaintiff’s passage of
time argument in the context of §922(g)(9)21
Especially instructive in this regard is the Ninth
Circuit’s well-reasoned Chovan opinion. 735 F.3d
1127. There, the Ninth Circuit noted that the
prohibited person had failed to present any evidence
that a domestic abuser is “highly unlikely” to
reoffend with the passage of time and, therefore
given the government’s evidence of high rates of
recidivism
amongst
domestic
abusers,
“the
application of §922(g)(9) to Chovan [was]
substantially related to the government’s important
interest of preventing domestic gun violence.”22

(8) See, e.g., Stimmel v. Sessions, 879 F.3d 198, 210 (6th
Cir. 2018) (rejecting plaintiff’s constitutional challenge to
§922(g)(9) in 2018 based on his assertion that “he has lived at
law-abiding life without additional convictions since 1997”);
Fisher v. Kealoha, 355 F.3d 1067, 1071 (9th Cir. 2017) (holding
that the mere fact that plaintiff’s harassment conviction was
twenty years old did not render §922(g)(9) unconstitutional as
applied to him); United States v. Chovan, 735 F.3d 1127, 114142 (9th Cir. 2013) (rejecting argument that §922(g)(9)cannot
constitutionally apply to a criminal defendant after fifteen
years without a subsequent conviction).
22 (9) The government in this case, as it did in Chovan,
submitted evidence including articles discussing social science
studies that reflect that domestic abusers are likely to
recidivate and even escalate their conduct. Unlike the plaintiff
in Chovan, the plaintiff here has offered no evidence in support
21

App-49

Chovan, 735 F.3d at 1142. Nor is Chovan the only
case to reach this result; other courts to consider the
issue, including the Sixth Circuit, have followed
Chovan’s rationale for upholding §922(g)(9) in the
face of as-applied challenges based on the passage of
time.23 These courts have recognized that although
§922(g)(9) is admittedly broad, Congress “is limited
to case-by-case exclusions of persons who have been
shown to be untrustworthy with weapons,” and that
certain categorical prohibitions are necessary to
achieve the government’s significant objective of
reducing gun violence in the home. See Skoien, 614
F.3d at 641. Because Congress’s categorical, lifetime
ban is reasonable tailored to its interest of protecting
family members from gun violence by domestic
abusers, plaintiff cannot obtain judicial relief for his
problem; he may, however, be a candidate for
executive action.24
In upholding §922(g)(9)’s lifetime ban, the
Sixth and Ninth Circuits have appropriately
recognized that federal courts should not read
expiration clauses or good behavior exceptions into
otherwise constitutional regulations when there is
no evidence that passage of time would alleviate the
concern addressed by Congress.25 In other words,
of his argument that the passage of time eliminates the risk of
domestic gun violence.
23 (10) See supra fn.6.
24 (11) See infra fn. 12.
25 (12) In Chovan, the Ninth Circuit notes that plaintiff’s
as-applied challenge calls for a legislative or policy judgment
rather than a judicial one:
[I]f Chovan’s as-applied challenge succeeds, a
significant exception to §922(g)(9) would emerge.
If
Congress had wanted§922(g)(9) to apply only to

App-50

where, as here, there is no evidence that passage of
time makes domestic abusers less prone to violence
and there is no evidence that passage of time makes
domestic abusers less prone to violence and there is
significant evidence that domestic abusers reoffend
at significant rates, Congress can, within its
discretion and within the bounds of the Constitution,
preclude domestic abusers from possessing weapons
for their lifetimes. Because Congress, in passing
§922(g)(9), created a regulation that has a
reasonable relationship to its desired objective, i.e.
eliminating domestic gun violence, it is improper to
create a judicial exception that has no basis in the
text of the statute. Because plaintiff’s passage of
time argument is a complex policy argument, it is, as
the Chovan Court noted, more appropriately
addressed legislatively than judicially. See supra fn.
11.
III.
Absent legislative or executive action,
plaintiff is subject to a lifetime firearm ban because
§922(g)(9) contains no sunset or good behavior clause
and the Constitution does not demand that a
individuals with recent domestic violence convictions, it
could have easily created a limited duration rather than
lifetime ban. Or it could have created a good behavior
clause under which individuals without new domestic
violence arrests or charges within a certain number of
years of conviction would automatically regain their rights
to possess firearms. But Congress did not do so. Congress
permissibly created a broad statute that only excepts those
individuals with expunged, pardoned, or set aside
convictions and those individuals who have had their civil
rights restored.
735 F.3d at 1142.

App-51

misdemeanant domestic abuser be given his rights
back simply because he exists for some time without
incident.
Given the grave importance of the
government’s interest in protecting men, women and
children who are subject to violence in their own
homes and given the evidence of recidivism amongst
domestic abusers, §922(g)(9)’s lifetime firearm ban
on misdemeanant domestic abusers is reasonably
tailored to the government’s substantial interest.
Accordingly, plaintiff’s motion for summary
judgment must be denied and the government’s
motion must be granted.26
A separate order will follow.
Alexandria, Virginia

T.S. Ellis, III

April 16, 2019

United States District
Judge

26 (13) Although plaintiff loses his judicial challenge, not
all is lost. Congress has provided four ways for domesticviolence misdemeanants to regain their right to possess a
firearm:
1) The misdemeanant may have the conviction set aside,
2) The misdemeanant may have the conviction expunged,
3)
The misdemeanant may have their civil rights
restored, or
4) The misdemeanant may seek a pardon.
See 18 U.S.C.§92(a)(33). Thus, rather than seeking judicial
relief, plaintiff may more appropriately seek political remedy.

App-52

IN THE UNITED STATES
DISTRICT COURT
FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
ROBERT TIMOTHY HARLEY,
v.

Case No. 1:18-cv-396

WILLIAM BARR,
Attorney General of the United States
Defendant.
ORDER
For the reasons stated in the memorandum
opinion issued this same day,
It is hereby ORDERED that plaintiff’s motion
for summary judgment (Doc.10) is DENIED.
It is further ORDERED that the government’s
motion for summary judgment (Doc.16) is
GRANTED.
Accordingly,
The Clerk of the Court is directed to enter Rule
58 judgment on behalf of the government and
against plaintiff and is further directed to place this
matter among the ended causes.
Because the government’s summary judgment
motion has been granted and this case will be closed,

App-53

It is further ORDERED that all other motions
are DENIED AS MOOT and all pending hearings
and deadlines are CANCELLED.
The Clerk shall provide a copy of this Order to
all counsel of record.
Alexandria, Virginia

T.S. Ellis, III

April 16, 2019

United States District
Judge

